Audit Report




OIG-08-016
Audit of the Exchange Stabilization Fund’s Fiscal Years 2007
and 2006 Financial Statements


December 10, 2007




Office of
Inspector General
Department of the Treasury
                                          DEPARTMENT OF THE TREASURY
                                                W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NER AL
                                                December 10, 2007


             MEMORANDUM FOR CLAY LOWERY
                            ASSISTANT SECRETARY FOR INTERNATIONAL AFFAIRS

             FROM:                    Michael Fitzgerald /s/
                                      Director, Financial Audits

             SUBJECT:                 Audit of the Exchange Stabilization Fund’s Fiscal Years 2007
                                      and 2006 Financial Statements


             I am pleased to transmit the attached audited Exchange Stabilization Fund (ESF)
             financial statements for fiscal years (FY) 2007 and 2006. Under a contract
             monitored by the Office of Inspector General, Clifton Gunderson LLP, an
             independent certified public accounting firm, performed an audit of the financial
             statements of ESF as of September 30, 2007 and 2006 and for the years then
             ended. The contract required that the audit be performed in accordance with
             generally accepted government auditing standards and the GAO/PCIE Financial
             Audit Manual.

             The following reports, prepared by Clifton Gunderson LLP, are incorporated in the
             attachment:

                      •   Independent Auditor’s Report;
                      •   Independent Auditor’s Report on Internal Control; and
                      •   Independent Auditor’s Report on Compliance with Laws and Regulations.

             In its audit, Clifton Gunderson LLP found:

                  •   the financial statements present fairly, in all material respects, the financial
                      position as of September 30, 2007 and 2006, and the results of its
                      operations and its cash flows for the years then ended in conformity with
                      accounting principles generally accepted in the United States of America;
                  •   no matters involving internal control and its operation that are considered
                      material weaknesses; and
                  •   no instances of reportable noncompliance with laws and regulations tested.
Page 2


In connection with the contract, we reviewed Clifton Gunderson LLP’s reports and
related documentation and inquired of its representatives. Our review, as
differentiated from an audit in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. Clifton
Gunderson LLP is responsible for the attached auditor’s reports dated
November 9, 2007 and the conclusions expressed in the reports. However, our
review disclosed no instances where Clifton Gunderson LLP did not comply, in all
material respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Susan L. Barron, Audit Manager, Financial
Audits at (202) 927-5776.

Attachment
DEPARTMENT OF THE TREASURY,

  Exchange Stabilization Fund





       FINANCIAL STATEMENTS


     September 30, 2007 and 2006

                                               TABLE OF CONTENTS




                                                                                                                            PAGE


INDEPENDENT AUDITOR’S REPORT ...................................................................................1


INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL .................................3


INDEPENDENT AUDITOR’S REPORT ON

  COMPLIANCE WITH LAWS AND REGULATIONS........................................................5


POLICY AND OPERATIONS STATEMENTS ........................................................................6


FINANCIAL STATEMENTS


    Statements of Financial Position................................................................................................9

    Statements of Income and Retained Earnings .........................................................................10

    Statements of Cash Flows........................................................................................................11


    Notes to Financial Statements..................................................................................................12

A1

                                          Independent Auditor’s Report


Inspector General
  of the Department of the Treasury and the
  Assistant Secretary for International Affairs


We have audited the accompanying statements of financial position of the U. S. Department of
the Treasury’s Exchange Stabilization Fund (ESF) as of September 30, 2007 and 2006, and the
related Statements of Income and Retained Earnings, and Statements of Cash Flows for the years
then ended. These statements are the responsibility of ESF’s management. Our responsibility is
to express an opinion on these statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial statements. An audit also
includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall presentation of the financial statements. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of ESF as of September 30, 2007 and 2006, and the results of its operations
and its cash flows for the years then ended in conformity with accounting principles generally
accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our reports dated
November 9, 2007, on our consideration of ESF’s internal control over financial reporting and on
our tests of ESF’s compliance with certain provisions of laws and regulations and other matters.
The purpose of those reports is to describe the scope of our testing of internal control over
financial reporting and compliance and the results of that testing, and not to provide an opinion
on internal control over financial reporting or on compliance. Those reports are an integral part
of an audit performed in accordance with Government Auditing Standards and should be
considered in assessing the results of our audit.




                                                                                   h
                                                       1
Offices in 17 states and Washington, DC
Our audits were conducted for the purpose of forming an opinion on the accompanying financial
statements taken as a whole. The policy and operations statements are presented for purposes of
additional analysis and are not a required part of the financial statements. Such information has
not been subjected to the auditing procedures applied in the audit of the basic financial
statements and, accordingly, we express no opinion or any other form of assurance on it.
However, we compared the information for consistency with the financial statements and, based
on these limited procedures, we found no material inconsistencies.


a1
Calverton, Maryland
November 9, 2007




                                               2

A1

                            Independent Auditor’s Report on Internal Control


Inspector General
  of the Department of the Treasury and the
  Assistant Secretary for International Affairs


We have audited the financial statements of the U. S. Department of the Treasury’s Exchange
Stabilization Fund (ESF) as of and for the year ended September 30, 2007, and have issued our
report thereon dated November 9, 2007. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America; and the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States.

In planning and performing our audit, we considered ESF’s internal control over financial
reporting as a basis for designing our auditing procedures for the purpose of expressing our
opinion on the financial statements, but not for the purpose of expressing an opinion on the
effectiveness of ESF’s internal control over financial reporting. Accordingly, we do not express
an opinion on the effectiveness of ESF’s internal control over financial reporting.

A control deficiency exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination
of control deficiencies, that adversely affects ESF’s ability to initiate, authorize, record, process,
or report financial data reliably in accordance with generally accepted accounting principles such
that there is more than a remote likelihood that a misstatement of ESF’s financial statements that
is more than inconsequential will not be prevented or detected by ESF’s internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements
will not be prevented or detected by ESF’s internal control.

Our consideration of the internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and would not necessarily identify all deficiencies
in internal control that might be significant deficiencies or material weaknesses. We did not
identify any deficiencies in internal control over financial reporting that we consider to be
material weaknesses, as defined above.




                                                                                     h
                                                   3
Offices in 17 states and Washington, DC
This report is intended solely for the information and use of the management of ESF, the
Department of the Treasury Office of Inspector General, the Office of Management and Budget,
the Government Accountability Office and Congress, and is not intended to be and should not be
used by anyone other than these specified parties.


a1
Calverton, Maryland
November 9, 2007




                                              4

A1

            Independent Auditor’s Report on Compliance with Laws and Regulations


Inspector General
  of the Department of the Treasury and the
  Assistant Secretary for International Affairs


We have audited the financial statements of the U. S. Department of the Treasury’s Exchange
Stabilization Fund (ESF) as of and for the year ended September 30, 2007, and have issued our
report thereon dated November 9, 2007. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America; and the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States.

As part of obtaining reasonable assurance about whether ESF’s financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws and
regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts. However, providing an opinion on compliance
with those provisions was not an objective of our audit and, accordingly, we do not express such
an opinion. The results of our tests of compliance disclosed no instances of noncompliance that
are required to be reported under Government Auditing Standards.

This report is intended solely for the information and use of the management of ESF, the
Department of the Treasury Office of Inspector General, the Office of Management and Budget,
the Government Accountability Office and Congress, and is not intended to be and should not be
used by anyone other than these specified parties.


a1
Calverton, Maryland
November 9, 2007




                                                                                h
                                                  5
Offices in 17 states and Washington, DC
                         EXCHANGE STABILIZATION FUND

                       POLICY AND OPERATIONS STATEMENTS

                                FISCAL YEAR 2007




The Nature and Function of the Exchange Stabilization Fund

The Gold Reserve Act of 1934 established a fund to be operated by the Secretary of the
Treasury, with the approval of the President. Section 10 of the Act provided that “For the
purpose of stabilizing the exchange value of the dollar, the Secretary of the Treasury, with the
approval of the President, directly or through such agencies as he may designate, is authorized,
for the account of the fund established in this section, to deal in gold and foreign exchange and
such other instruments of credit and securities as he may deem necessary to carry out the purpose
of this section.” To this end, the Congress, in 1934, appropriated to the Exchange Stabilization
Fund (ESF) the sum of $2 billion out of the increment resulting from the reduction in the “weight
of the gold dollar.” Subsequent amendments to the Gold Reserve Act approved the operation of
the ESF through June 30, 1945. Section 7 of the Bretton Woods Agreements Acts, approved
July 31, 1945, continued its operations permanently.

The Bretton Woods Agreements Act also directed the Secretary of the Treasury to pay $1.8
billion from the ESF to the International Monetary Fund (IMF), for the initial U. S. quota
subscription in the IMF, thereby reducing the ESF’s appropriated capital to $200 million.

Reflecting termination of the fixed exchange rate system, legislation enacted in 1976 (P.L. 94­
564, effective April 1, 1978, the date of entry into force of the Second Amendment of the IMF
Articles of Agreement) amended the language of Section 10 of the Gold Reserve Act to specify
that the ESF is to be utilized as the Secretary “may deem necessary to and consistent with the
United States obligations in the International Monetary Fund.” In 1977, P.L. 95-147 further
amended Section 10 of the Gold Reserve Act. Following codification, Section 10 now provides
as follows:

   Consistent with the obligations of the Government in the International Monetary Fund on
   orderly exchange arrangements and a stable system of exchange rates, the Secretary or an
   agency designated by the Secretary, with the approval of the President, may deal in gold,
   foreign exchange, and other instruments of credit and securities the Secretary considers
   necessary. However, a loan or credit to a foreign entity or government of a foreign country
   may be made for more than 6 months in a 12-month period only if the President gives
   Congress a written statement that unique or emergency circumstances require the loan or
   credit be for more than 6 months (31 U.S.C. 5302 (b)).

Pursuant to the Special Drawing Rights Act of 1968 (P.L. 90-349, amended by P.L. 94-564,
which was approved October 18, 1976 and became effective April 1, 1978), Special Drawing
Rights (SDRs) allocated by the IMF to the United States or otherwise acquired by the United
States are resources of the ESF.

Section 286p of Title 22 of the United States Code allows for SDRs to be
monetized/demonetized through the issuance/redemption by the Secretary of the Treasury of
SDR certificates to the Federal Reserve Banks in exchange for dollars. The total amount of SDR


                                               6

                           EXCHANGE STABILIZATION FUND

                         POLICY AND OPERATIONS STATEMENTS

                                  FISCAL YEAR 2007




certificates outstanding cannot exceed the dollar equivalent of ESF (i.e., U. S.) holdings of
SDRs; such certificates are a liability of the ESF.

I.     Foreign Currency Operations

       During fiscal year 2007, the ESF engaged in no market transactions.

       a. Euros and Japanese Yen

          The ESF had a net valuation gain of $1.679 million on its holdings of euros and yen.
          The ESF had investment income of $501.2 million equivalent on its euro and yen
          assets.

       b. Mexico

          In December 2006, the Treasury and Federal Reserve Bank of New York renewed the
          Exchange Stabilization Agreement with Mexico for another year to December 2007.
          Renewal for another year to December 2008 was in process at the time this report was
          being issued.

II.    SDR Operations

       As of September 30, 2007, U. S. holdings (assets) of SDRs totaled SDR 6.0 billion ($9.3
       billion equivalent), a net increase of SDR 0.1 billion during Fiscal Year 2007. However, as
       the SDR appreciated against the dollar in this period, there was a net valuation gain of
       $476.6 million on U. S. holdings of SDRs. The ESF reimbursed the Treasury’s General
       Fund $107.2 million for SDRs received from the IMF as remuneration on the U. S. reserve
       position in the IMF. The ESF earned interest of $370.9 million equivalent on its SDR
       holdings.

       As of September 30, 2007, cumulative allocations to (liabilities of) the United States
       totaled SDR 4.9 billion ($7.6 billion equivalent). These liabilities would come due only in
       the event of liquidation of, or U. S. withdrawal from, the SDR Department of the IMF, or
       cancellation of SDRs.

       There were $2.2 billion of SDR certificates that had been issued to the Federal Reserve
       System prior to Fiscal Year 2007 and remained outstanding at the end of the fiscal year.

III.   Income and Expense

       Interest revenue totaled $1,706 million, consisting of $834.2 million in interest on dollar
       holdings invested in U. S. Government securities, $370.9 million equivalent in interest on
       SDR holdings, and $501.2 million equivalent in interest on foreign currency investments.


                                                  7

                   EXCHANGE STABILIZATION FUND

                 POLICY AND OPERATIONS STATEMENTS

                          FISCAL YEAR 2007




Interest expense totaled $307.1 million, which included $306.6 million in interest charges
on SDR Allocations and $0.5 million paid by the ESF to the Treasury General Fund on the
dollar counterpart of SDRs received as remuneration on the U. S. reserve positioning the
IMF.




                                         8

                           DEPARTMENT OF THE TREASURY

                           EXCHANGE STABILIZATION FUND

                         STATEMENTS OF FINANCIAL POSITION

                                   (In Thousands)



As of September 30                                           2007                       2006

                                              ASSETS

CASH AND CASH EQUIVALENTS (note 2)
 U. S. Government securities                           $ 16,436,114              $ 15,711,045
 Foreign currency denominated assets                      7,599,522                 6,809,712

         Total cash and cash equivalents                   24,035,636                22,520,757

OTHER FOREIGN CURRENCY
DENOMINATED
  ASSETS (note 3)                                           4,445,254                 3,830,956
 Special drawing right holdings (note 4)                    9,300,550                 8,654,510
 Investment securities, held to maturity (note 5)           9,918,457                 9,171,379
 Accrued interest receivable                                  224,353                   187,636

TOTAL ASSETS                                           $ 47,924,250              $ 44,365,238

                                LIABILITIES AND EQUITY

LIABILITIES
 Certificates issued to Federal reserve
   banks (note 6)                                      $    2,200,000            $    2,200,000
 Special drawing right allocations (note 4)                 7,626,853                 7,233,519
 Accrued expenses and other                                    51,454                    46,929

         Total liabilities                                  9,878,307                 9,480,448

EQUITY
 Appropriated capital                                         200,000                   200,000
 Retained earnings                                         37,845,943                34,684,790

         Total equity                                      38,045,943                34,884,790

TOTAL LIABILITIES AND EQUITY                           $ 47,924,250              $ 44,365,238

           The accompanying notes are an integral part of these financial statements.

                                                9
                       DEPARTMENT OF THE TREASURY

                       EXCHANGE STABILIZATION FUND

                STATEMENTS OF INCOME AND RETAINED EARNINGS

                                (In Thousands)



Years Ended September 30                                           2007                   2006

INTEREST REVENUE
 Interest on U. S. Government securities                     $     834,219         $      685,477
 Interest on foreign currency
   denominated assets                                              329,551                193,328
 Interest on special drawing right holdings                        370,916                288,607
 Interest on investment securities                                 171,600                135,111

         Total interest revenue                                   1,706,286              1,302,523

INTEREST EXPENSE
 Interest on special drawing right allocations                     306,583                243,944
 Interest on special drawing right received
   as remuneration by the U. S. Treasury                               518                    490

         Total interest expense                                    307,101                244,434

NET INTEREST REVENUE                                              1,399,185              1,058,089

NET GAINS
 Net gain on valuation of:
  Special drawing rights                                             83,620                24,477
  Foreign currency denominated assets                             1,678,690               250,330

         Total net gains                                          1,762,310               274,807

OTHER EXPENSES
 International monetary fund annual
   assessment                                                          342                    344

NET INCOME                                                        3,161,153              1,332,552

RETAINED EARNINGS, BEGINNING OF
 YEAR                                                            34,684,790            33,352,238

RETAINED EARNINGS, END OF YEAR                               $ 37,845,943          $ 34,684,790



            The accompanying notes are an integral part of these financial statements.

                                                 10
                               DEPARTMENT OF THE TREASURY

                               EXCHANGE STABILIZATION FUND

                                STATEMENTS OF CASH FLOWS

                                       (In Thousands)



Years Ended September 30                                                      2007                 2006

CASH FLOWS FROM OPERATING ACTIVITIES
  Interest received on:
      U. S. Government securities                                      $     832,771        $     683,282
      Foreign currency denominated assets                                    317,243              180,656
      Investment securities                                                  146,156              165,815
  Net gain on valuation of foreign currency
    denominated assets                                                      1,678,690              250,330
  Other                                                                         9,096              (26,847)
         Net cash provided by operating activities                          2,983,956            1,253,236

CASH FLOWS FROM INVESTING ACTIVITIES
  Net increase in foreign currency
   denominated assets                                                        (614,298)            (273,847)
  Net increase in investment securities                                      (747,078)             (61,965)
  Purchases of special drawing rights received as remuneration
    by the U. S. Treasury and related interest                               (107,701)            (210,011)
        Net cash used in investing activities                              (1,469,077)            (545,823)

NET INCREASE IN CASH AND CASH EQUIVALENTS                                   1,514,879              707,413
CASH AND CASH EQUIVALENTS, BEGINNING OF YEAR                               22,520,757           21,813,344

CASH AND CASH EQUIVALENTS, END OF YEAR                                 $24,035,636          $22,520,757

RECONCILIATION OF NET INCOME TO NET CASH
 PROVIDED BY OPERATING ACTIVITIES
  Net income                                                           $ 3,161,153          $ 1,332,552
  Adjustments to reconcile net income to net cash
   provided by operating activities:
     Increase in special drawing right
        holdings due to valuation                                            (476,567)            (156,122)
     Net interest received in special drawing rights                          (61,772)             (43,715)
     Increase in accrued interest receivable                                  (36,717)             (26,082)
     Increase in special drawing right
        allocations due to valuation                                       393,334              131,846
     Increase in accrued expenses and other                                  4,525               14,757
        Total adjustments                                                 (177,197)             (79,316)
NET CASH PROVIDED BY OPERATING ACTIVITIES                              $ 2,983,956          $ 1,253,236



               The accompanying notes are an integral part of these financial statements.

                                                    11
                           DEPARTMENT OF THE TREASURY

                           EXCHANGE STABILIZATION FUND

                          NOTES TO FINANCIAL STATEMENTS

                              September 30, 2007 and 2006




NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

The Exchange Stabilization Fund (ESF) was established as a result of the Gold Reserve Act of
1934, as amended, to be operated by the Secretary of the Treasury, with the approval of the
President, consistent with the obligations of the U. S. Government in the International Monetary
Fund (IMF) on orderly exchange arrangements and a stable system of exchange rates. To this
end, the Secretary of the Treasury may deal in gold, foreign exchange, and other instruments of
credit and securities.

A. Basis of Accounting and Presentation

The ESF has historically prepared its financial statements in accordance with generally accepted
accounting principles, based on accounting standards issued by the Financial Accounting
Standards Board (FASB), the private-sector standards-setting body. The Federal Accounting
Standards Advisory Board (FASAB) was designated by the American Institute of Certified
Public Accountants (AICPA) as the standards-setting body for financial statements of Federal
government entities, with respect to the establishment of generally accepted accounting
principles. FASAB has indicated, however, that financial statements prepared based upon
accounting standards published by the FASB may also be regarded as in accordance with
generally accepted accounting principles for those Federal entities, such as the ESF, that have
issued financial statements based upon FASB accounting standards in the past. Accordingly,
consistent with historical reporting, the ESF financial statements are presented in accordance
with accounting standards published by the FASB. In accordance with generally accepted
accounting principles, the preparation of financial statements requires the use of management to
make estimates and assumptions that affect the reported amounts of assets and liabilities and
disclosures of contingent assets and liabilities at the date of the financial statements and the
reported amounts of revenues and expenses during the reporting period. Actual results could
differ from those estimates.

B.   Fair Values of Financial Instruments

Cash and Cash Equivalents, which consist of U. S. Government securities and Foreign Currency
Denominated Assets (FCDA), are reported in the Statement of Financial Position at amounts that
approximate their fair values. The fair value of Investment Securities is based upon quoted
market prices (See Note 5). FCDA, Other FCDAs, Special Drawing Right (SDR) Holdings, and
SDR Allocations have been revalued in the Statement of Financial Position, using current
exchange rates, to amounts which approximate fair value. The SDR Certificates issued to
Federal Reserve Banks (FRB) are reflected on the Statement of Financial Position at their face
value.




                                              12

                            DEPARTMENT OF THE TREASURY

                            EXCHANGE STABILIZATION FUND

                           NOTES TO FINANCIAL STATEMENTS

                               September 30, 2007 and 2006




NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (CONTINUED)

It is not practicable to estimate the fair value of these Certificates issued to FRBs since these
Certificates contain no specific terms of repayment. ESF enters into guarantee agreements which
represent commitments by Treasury with lenders and/or investors that provide for repayment of
all or part of the principal and/or interest on certain debt obligations of a borrower and/or issuer.
The ESF is exposed to credit risk on guarantees in the event that it has to honor a guarantee and
is unable to recover from the borrower the amounts advanced under the guarantee. It is not
practicable to estimate the fair value of these guarantee agreements because no similar
agreements that have comparable credit risk could be readily identified. Therefore, excessive
costs would be incurred to estimate the fair value of these guarantee agreements.

C. Translation of Foreign Currency Denominated Assets and Liabilities

In accordance with Statement of Financial Accounting Standards (SFAS) No. 52, “Foreign
Currency Translation”, FCDA and liabilities are revalued daily to reflect current exchange rates
in effect as of the reporting date. The gains or losses resulting from changes in exchange rates
are reported separately in the Statement of Income and Retained Earnings.

D. U. S. Government Securities

ESF invests dollars in excess of its immediate needs in overnight, non-marketable U. S.
Government securities issued by the Treasury. The interest rate paid on the investments is the
overnight repurchase agreement rate as established by the Bureau of Public Debt.

NOTE 2 - CASH AND CASH EQUIVALENTS

Cash equivalents are short-term, highly liquid investments that are both readily convertible to
known amounts of cash, and so near their maturity that they present insignificant risk of change
in value due to changes in interest rates. Generally, only investments with original maturities of
three months or less qualify under that definition. U. S. Government securities and FCDAs with
original maturities of three months or less, except for foreign currencies acquired under swap
agreements with developing countries, are treated as cash equivalents.

The ESF invests a portion of its European Euro holdings through repurchase agreements in
securities issued by, and backed by the full faith and credit of the Federal Republic of Germany.
As of September 30, 2007 and September 30, 2006 the amounts of repurchase agreements were
approximately $2.5 billion and $2.1 billion, respectively. These repurchase agreements are
considered to be FCDAs with original maturities of three months or less, which are treated as
cash equivalents, as discussed above. Such investments are made by the Federal Reserve Bank
of New York (FRBNY), as fiscal agent of the Treasury, in connection with the ESF’s




                                                 13

                           DEPARTMENT OF THE TREASURY

                           EXCHANGE STABILIZATION FUND

                          NOTES TO FINANCIAL STATEMENTS

                              September 30, 2007 and 2006




NOTE 2 - CASH AND CASH EQUIVALENTS (CONTINUED)

participation in such repurchase agreements. In this capacity, FRBNY enters into agreements
under which German government securities are purchased from, and subsequently resold to,
private counterparties. Such transactions are settled through a tri-party agent, Deutsche Bank.
The securities are held by Deutsche Bank for FRBNY pending resale and are not transferred
back to a private counterparty upon resale until cash has been received.

The FRBNY instructs the tri-party agent on matters related to these investments. The amounts held
as of September 30, 2007 and September 30, 2006 are as follows:

September 30 (In Thousands)                                      2007                 2006

Cash and cash equivalents:

U. S. Government securities                                 $ 16,436,114         $ 15,711,045

FCDAs:

   European euro                                                4,871,893            4,187,722
   Japanese yen                                                 2,727,629            2,621,990

Total foreign currency denominated assets                       7,599,522            6,809,712

Total cash and cash equivalents                             $ 24,035,636         $ 22,520,757

NOTE 3 - OTHER FCDAS

Operations of the ESF result in the holding of various foreign currencies. The ESF normally
invests its foreign currency holdings in interest bearing assets issued by or held through foreign
governments or monetary authorities. Other FCDAs are assets with maturities greater than three
months, and include foreign currencies acquired under swap agreements with various countries
(See Note 7).

September 30 (In Thousands)                                      2007                 2006

Other FCDAs:

   European euro                                            $   4,445,254        $   3,830,956

Total other FCDAs                                           $   4,445,254        $   3,830,956



                                               14
                          DEPARTMENT OF THE TREASURY

                          EXCHANGE STABILIZATION FUND

                         NOTES TO FINANCIAL STATEMENTS

                             September 30, 2007 and 2006




NOTE 4 - SPECIAL DRAWING RIGHTS

The Special Drawing Rights (SDR) is an international reserve asset created by the IMF. It was
created as a supplement to existing reserve assets, and on several occasions SDRs have been
allocated by the IMF to members participating in the IMF’s SDR department. Its value as a
reserve asset derives, essentially, from the commitments of participants to hold and accept SDRs
and to honor various obligations connected with its proper functioning as a reserve asset.

Pursuant to the Special Drawing Rights Act of 1968, as amended, SDRs allocated to or otherwise
acquired by the United States are resources of ESF. SDRs, once allocated, are permanent
resources unless:

   a.	 They are canceled by an 85 percent majority decision of the total voting power of the
       Board of Governors.

   b.	 The SDR Department of the IMF is liquidated.

   c.	 The IMF is liquidated.

   d.	 The United States chooses to withdraw from the IMF or terminate its participation in the
       SDR Department.

Except for the payment of interest and charges on SDR allocations to the United States, the
payment of the ESF’s liability related to the SDR allocations is conditional on events listed
above, in which the United States has a substantial or controlling voice. Allocations of SDRs
were made on January 1, 1970, 1971, 1972, 1979, 1980 and 1981. Since 1981, the IMF has
made no further allocations of SDRs. As of September 30, 2007 and September 30, 2006, the
amounts of SDR allocations were the equivalent of $7.6 billion and $7.2 billion, respectively.

On a daily basis, the IMF calculates the value of the SDR using the market value, in terms of the
U. S. dollar, of each of the four freely usable weighted currencies, as defined by the IMF. These
currencies are the U. S. dollar, the European Euro (components consist of the French and
German weights), the Japanese yen, and the pound sterling. The ESF’s SDR holdings and
allocations are revalued monthly based on the SDR valuation rate calculated by the IMF, and an
unrealized gain or loss on revaluation is recognized.

During Fiscal Years (FY) 2007 and 2006, the ESF purchased, at the prevailing rates, $108
million and $210 million, respectively, equivalent of SDRs received from the IMF by the
General Fund of the U. S. Government as remuneration (interest) on the U. S. reserve position in
the IMF, and paid the General Fund $0.5 million in fiscal year 2007 and in fiscal year 2006, in
interest on dollars due the General Fund in return for SDRs received as remuneration. ESF did
not sell or purchase SDRs from participating members during FY 2007 or FY 2006.


                                               15

                            DEPARTMENT OF THE TREASURY

                            EXCHANGE STABILIZATION FUND

                           NOTES TO FINANCIAL STATEMENTS

                               September 30, 2007 and 2006




NOTE 4 - SPECIAL DRAWING RIGHTS (CONTINUED)


The following charts reflect the actual activity (i.e. amounts paid and received) related to SDRs

during fiscal years 2007 and 2006.

                                                                                         Dollar
 As of September 30, 2007 (In Thousands)                           SDR                 Equivalent

 Special drawing rights (in thousands):

 Beginning balance:                                               5,862,021        $    8,654,510
   Interest received on holdings                                    243,177               366,490
   Interest paid on allocations                                    (201,624)             (303,843)
   Remunerations and reimbursements                                  71,385               107,183
   IMF annual assessment                                               (238)                 (357)
   Net gain on valuation of holdings                                    -                 476,567

 Ending balance                                                   5,974,721        $    9,300,550

                                                                                         Dollar
 As of September 30, 2006 (In Thousands)                           SDR                 Equivalent

 Special drawing rights (in thousands):

 Beginning balance:                                               5,688,093        $    8,244,662
   Interest received on holdings                                    187,834               274,821
   Interest paid on allocations                                    (157,339)             (230,221)
   Remunerations and reimbursements                                 143,707               209,521
   IMF annual assessment                                               (274)                 (395)
   Net gain on valuation of holdings                                    -                 156,122

 Ending balance                                                   5,862,021        $    8,654,510

NOTE 5 - INVESTMENTS AND RELATED INTEREST

In accordance with SFAS 115, “Accounting for Certain Investments in Debt and Equity
Securities”, securities that the ESF has both the positive intent and ability to hold to maturity are
classified as investment securities held to maturity and carried at historical cost, adjusted for
amortization of premiums and accretion of discounts. Interest on investment securities,
amortization of premiums, and accretion of discounts are reported in interest on investment
securities.



                                                 16

                          DEPARTMENT OF THE TREASURY

                          EXCHANGE STABILIZATION FUND

                         NOTES TO FINANCIAL STATEMENTS

                             September 30, 2007 and 2006




NOTE 5 - INVESTMENTS AND RELATED INTEREST (CONTINUED)

The following schedule shows investment securities at their amortized cost and by year of
maturity as of September 30, 2007 and September 30, 2006. There are no securities maturing
after ten years.

September 30                                                2007               2006

Securities, held to maturity (in thousands):

All Securities (at Amortized Cost)

German bonds                                           $   2,129,248      $   1,765,920
French bonds                                               1,134,770          1,212,807
French notes                                               1,125,937            802,045
Japanese Government bonds                                  5,528,502          5,390,607

Total amortized cost                                   $   9,918,457      $   9,171,379

Maturing Within 1 Year

Fair Value:
   German bonds                                        $     306,155      $     261,191
   French bonds                                              395,687            347,037
   French notes                                              102,896             48,319
   Japanese Government bonds                               2,418,534          3,689,566

Total fair value                                       $   3,223,272      $   4,346,113

Amortized cost:
  German bonds                                         $     300,135      $     254,558
  French bonds                                               380,442            332,441
  French notes                                               102,761             47,663
  Japanese Government bonds                                2,414,804          3,690,093

Total amortized cost                                   $   3,198,142      $   4,324,755




                                               17

                          DEPARTMENT OF THE TREASURY

                          EXCHANGE STABILIZATION FUND

                         NOTES TO FINANCIAL STATEMENTS

                             September 30, 2007 and 2006




NOTE 5 - INVESTMENTS AND RELATED INTEREST (CONTINUED)

September 30                                                2007                2006
Gross unrealized holdings gain (loss):
  German bonds                                         $       6,020       $      6,633
  French bonds                                                15,245             14,596
  French notes                                                   135                656
  Japanese Government bonds                                    3,730               (527)

Total gross unrealized holdings net gain               $      25,130       $     21,358

Maturing after 1 Year through 5 Years (German, French Bonds/Notes, & Japanese Bonds)

Fair value:
   German bonds                                        $   1,862,191       $   1,550,346
   French bonds                                              772,112             907,916
   French notes                                            1,022,718             757,851
   Japanese Government bonds                               3,119,780           1,696,932

Total fair value                                       $   6,776,801       $   4,913,045

Amortized cost:
  German bonds                                         $   1,829,113       $   1,511,362
  French bonds                                               754,328             880,366
  French notes                                             1,023,176             754,382
  Japanese Government bonds                                3,113,698           1,700,514

Total amortized cost                                   $   6,720,315       $   4,846,624

Gross unrealized holdings gain (loss):
  German bonds                                         $      33,078       $     38,984
  French bonds                                                17,784             27,550
  French notes                                                  (458)             3,469
  Japanese Government bonds                                    6,082             (3,582)

Total gross unrealized holdings net gain               $      56,486       $     66,421




                                            18

                          DEPARTMENT OF THE TREASURY

                          EXCHANGE STABILIZATION FUND

                         NOTES TO FINANCIAL STATEMENTS

                             September 30, 2007 and 2006




NOTE 6 - CERTIFICATES ISSUED TO FEDERAL RESERVE BANKS

The Special Drawing Rights Act of 1968 authorized the Secretary of the Treasury to issue
certificates, not to exceed the value of SDR holdings, to the Federal Reserve Bank in return for
interest free dollar amounts equal to the face value of certificates issued (SDR monetization).
The certificates may be issued for the purpose of financing the acquisition of SDRs from other
countries or to provide resources for financing other ESF operations. Certificates issued are to
be redeemed by ESF at such times and in such amounts as the Secretary of the Treasury may
determine (SDR demonetization).

As of September 30, 2007 and September 30, 2006 the amounts of SDR certificates outstanding
were $2.2 billion, while the value of SDR holdings was $9.3 billion and $8.7 billion, for a
difference of $7.1 billion and $6.5 billion, respectively. During fiscal years 2007 and 2006, ESF
transacted no monetizations or demonetizations.

NOTE 7 - FOREIGN CURRENCY AGREEMENTS AND GUARANTEES

Foreign Currency Agreements represent swap agreements between Treasury and various
countries that provide for drawings of dollars by those countries and/or drawings of foreign
currencies by Treasury. The Treasury enters into these agreements through the ESF. Any
balances the ESF may hold under such agreements are held for other than trading purposes and
are reflected as Other Foreign Currency Denominated Assets in the Statement of Financial
Position (See Note 3). The ESF is exposed to credit risk on foreign currency agreements in the
event of default by counterparties to the extent of any amounts that have been recorded in the
Statement of Financial Position. Market risk occurs as a result of fluctuations in currency
exchange rates. The ESF is not exposed to market risk on foreign currency agreements that
could occur as a result of fluctuations in currency exchange rates. Under these agreements, the
ESF will receive an agreed upon amount in dollars upon maturity regardless of currency
fluctuations.

ESF enters into guarantee agreements which represent commitments by Treasury with lenders
and/or investors that provide for repayment of all or part of the principal and/or interest on
certain debt obligations of a borrower and/or issuer. ESF is exposed to credit risk on guarantees
in the event it has to honor a guarantee and is unable to recover from the borrower amounts
advanced under the guarantee. ESF did not enter into any guarantee agreements during FYs
2007 and 2006.




                                               19

                          DEPARTMENT OF THE TREASURY

                          EXCHANGE STABILIZATION FUND

                         NOTES TO FINANCIAL STATEMENTS

                             September 30, 2007 and 2006




NOTE 7 - FOREIGN CURRENCY AGREEMENTS AND GUARANTEES (CONTINUED)

ESF’s foreign currency agreements consisted of the following at September 30, 2007 and
September 30, 2006:

In April 1994, Treasury signed the North American Framework Agreement, which includes an
Exchange Stabilization Agreement (ESA), with Mexico. The ESA provides for a $3 billion
standing swap line. The amounts and terms (including the assured source of repayment) of any
new borrowings under the North American Framework Agreement would need to be negotiated.
There were no drawings outstanding on these agreements as of September 30, 2007 and 2006. In
December 2006, the Treasury and FRB extended this agreement to December 2007. Renewal for
another year to December 2008 was in process at the time this report was being issued.




         This information is an integral part of the accompanying financial statements.

                                              20
